Audit Report, “Information Technology Security Controls on NASA’s Administrative
Systems and Networks in [NASA Installations]” (IG-05-027, September 30, 2005)

The NASA Office of Inspector General conducted a review to determine whether
controls at selected NASA installations were adequate to ensure the information
technology (IT) security of NASA data and resources and to mitigate risks to other
NASA systems and networks connected to the selected ones.

We found that controls over NASA facilities and on administrative computer systems and
networks at the NASA installations we evaluated were not sufficient to ensure the IT
security of administrative data and resources. However, NASA was taking appropriate
actions to address our recommendations.

The report contains NASA Information Technology/Internal Systems Data that is not
routinely released under the Freedom of Information Act (FOIA). To submit a FOIA
request, see the online guide.
